<html>
<title> - JOBS AND OPPORTUNITY: EMPLOYER PERSPECTIVES ON THE JOBS GAP</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                     JOBS AND OPPORTUNITY: EMPLOYER
                      PERSPECTIVES ON THE JOBS GAP

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 25, 2018

                               __________

                          Serial No. 115-HR06

                               __________

         Printed for the use of the Committee on Ways and Means










[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]













		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
33-867                    WASHINGTON : 2019                 
















                      COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
DEVIN NUNES, California              SANDER M. LEVIN, Michigan
DAVID G. REICHERT, Washington        JOHN LEWIS, Georgia
PETER J. ROSKAM, Illinois            LLOYD DOGGETT, Texas
VERN BUCHANAN, Florida               MIKE THOMPSON, California
ADRIAN SMITH, Nebraska               JOHN B. LARSON, Connecticut
LYNN JENKINS, Kansas                 EARL BLUMENAUER, Oregon
ERIK PAULSEN, Minnesota              RON KIND, Wisconsin
KENNY MARCHANT, Texas                BILL PASCRELL, JR., New Jersey
DIANE BLACK, Tennessee               JOSEPH CROWLEY, New York
TOM REED, New York                   DANNY DAVIS, Illinois
MIKE KELLY, Pennsylvania             LINDA SANCHEZ, California
JIM RENACCI, Ohio                    BRIAN HIGGINS, New York
PAT MEEHAN, Pennsylvania             TERRI SEWELL, Alabama
KRISTI NOEM, South Dakota            SUZAN DELBENE, Washington
GEORGE HOLDING, North Carolina       JUDY CHU, California
JASON SMITH, Missouri
TOM RICE, South Carolina
DAVID SCHWEIKERT, Arizona
JACKIE WALORSKI, Indiana
CARLOS CURBELO, Florida
MIKE BISHOP, Michigan
DARIN LAHOOD, Illinois

                     David Stewart, Staff Director

                 Brandon Casey, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                    ADRIAN SMITH, Nebraska, Chairman

JACKIE WALORSKI, Indiana             DANNY DAVIS, Illinois
CARLOS CURBELO, Florida              LLOYD DOGGETT, Texas
MIKE BISHOP, Michigan                TERRI SEWELL, Alabama
DAVID SCHWEIKERT, Arizona            JUDY CHU, California
DARIN LAHOOD, Illinois
DAVID G. REICHERT, Washington






















                            C O N T E N T S

                               __________

                                                                   Page

Advisory of April 25, 2018.......................................     2

                               WITNESSES

David Ard, Senior Vice President and Global Head of People and 
  Communications, Gap, Inc.......................................     6
Julie Shapiro, Executive Director, The Door......................    12
Steve Staub, President and Owner, Staub Manufacturing Solutions..    18
Dr. Dan Lustig, Psy.D. CAADC MISA II, President and CEO, 
  Haymarket Center...............................................    27
Glenn Johnson, Manufacturing Workforce Development Leader, BASF 
  Corporation....................................................    33
Barb Pilarski, Head of Human Resources, FCA U.S. LLC.............    40

 
                     JOBS AND OPPORTUNITY: EMPLOYER
                      PERSPECTIVES ON THE JOBS GAP

                              ----------                              


                       WEDNESDAY, APRIL 25, 2018

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11:30 a.m., in 
Room 1100, Longworth House Office Building, the Honorable 
Adrian Smith [Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]



 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       


    Chairman SMITH. The Subcommittee will come to order. Good 
morning and welcome to the third hearing in our series focusing 
on jobs and opportunity. The purpose of these hearings is to 
demonstrate how, as our economy continues to strengthen, 
following the enactment of the Tax Cuts and Jobs Act, 
employers' demand for workers is growing and our human services 
programs can plan an important role in supporting the next wave 
of workers needed to continue this economic growth.
    Millions of Americans are on the sidelines of our economy, 
and it is vital we understand how taxpayer resources, 
particularly those under this Committee's jurisdiction, are 
being leveraged, or not, to address the needs of those 
struggling to get ahead. With the Temporary Assistance to Needy 
Families program set to expire in September, this Committee 
must not stand down from its responsibility to reauthorize this 
program and provide certainty to families, States, and 
taxpayers.
    Last week, we were honored to welcome Department of Labor's 
Secretary Alexander Acosta to share the Federal Government's 
perspective. Secretary Acosta told the Committee in his opening 
remarks how the Department of Labor has been working to keep 
our economy moving forward because, as it fires on all 
cylinders, with the help of the Tax Cuts and Jobs Act.
    He said, quote: ``At the Department of Labor, we are 
creating opportunity for all Americans by expanding 
apprenticeships across all industries by streamlining 
traditional workforce education and providing State leaders the 
flexibilities they need to meet the needs of job creators and 
their local workforces,'' end quote.
    Secretary Acosta also emphasized the demand from Governors 
for more flexibility to focus funds on where they can best 
serve the needs of the communities. He rightly pointed out that 
Nebraska is different from California, which is very different 
from Florida and went on to add, it is not just cooperation 
between the agencies but also flexibility to allow the 
Governors to focus workforce education funds where they best 
serve the needs of their States.
    Two weeks ago, before this Subcommittee, we heard about 
local perspectives from Members' districts about the challenges 
they are facing in an economic environment with low 
unemployment and more than 6 million job openings. Three 
witnesses, including a program participant, testified about a 
program, the Arizona Homebuilders Association, started to help 
companies be able to continue to grow as they face a labor 
shortage. The association partnered with Arizona correctional 
facilities to provide training in construction trades to 
inmates nearing their release date. These are win-win programs.
    Companies gain access to a strong labor pool of hardworking 
individuals, and incarcerated men and women are given the 
purpose and stability of good jobs, reducing recidivism. Public 
policy should have the same goals. But the programs heard about 
2 weeks ago were created and operated entirely without the use 
of Federal, State, or local funds or programs.
    At the same time, there are more than 40 federal job 
training programs. States are spending a combined $30 billion a 
year through TANF, and less than half of those dollars are 
being spent on core work activities and supportive services 
that could help close the jobs gap.
    Today, we continue our exploration of the jobs gap, the 
difference between the employers' demands for workers, shown as 
job openings, and the declining number of individuals in the 
workforce, as shown on the screen as the labor force 
participation rate. Our panel features several larger national 
employers across industries, including automotive, 
manufacturing, chemical, and retail.
    They will each highlight challenges they face in growing 
their businesses due to a lack of workers. What they are doing 
to address the jobs gap and what they believe is the best way 
to promote Americans to get back into the workforce. Today's 
employers may have similar stories as those from our first 
hearing, but we will be focusing on their business case for 
investing in workers on the sidelines to get them job-ready.
    We will also learn more about why this moment is different 
from those in the past and the urgency which is needed to 
address the jobs gap. Today I am excited to learn from the 
witnesses about their experiences and what has led to their 
success so we can translate these lessons into better public 
policy for across-the-board victories for American workers, 
American families, American businesses, and the American 
economy.
    Without objection, I will now recognize Mr. Davis, our 
Ranking Member, for his opening statement.
    Mr. DAVIS. Thank you, Mr. Chairman. And I thank you for 
holding this hearing. I have appreciated your willingness to 
hear from a range of voices, including returning citizens who 
are often left behind by the economy and left out of our policy 
changes. I also hope we will have the opportunity to hear 
testimony in response to specific potential changes.
    We need ample feedback from the people who are successfully 
lifting up families in our communities to ensure that any 
policy changes we consider will help more Americans get good 
jobs and not bring added hardship on struggling families. 
Thurgood Marshall correctly observed that none of us got where 
we are solely by pulling ourselves up by our bootstraps. We got 
here because somebody--a parent, a teacher, a family, or a 
political connection, a nun, or other faith-inspired person or 
program--helped us pick up our boots.
    More than three-fourths of unemployed Illinois residents 
live in the Chicago area. In my congressional district, the 
unemployment rate is over 9 percent, and more than a fourth of 
families with children live in poverty. In Illinois the Black 
unemployment rate is twice the overall State unemployment rate, 
and at least 43 percent of Black men, aged 20 to 24 in Chicago, 
are neither employed nor in school.
    I share your desire to connect people with jobs so they can 
lift themselves and their families out of poverty. But I remain 
concerned by the rhetoric we are hearing in Washington, 
suggesting that helping people with barriers to employment who 
live in communities with few resources, who lack connections in 
some form of offensive welfare, that merits cutting or 
attaching humiliating conditions. We should not be cutting off 
food, housing, and healthcare for people who aren't working. We 
should be knocking down the barriers that are keeping them from 
getting good jobs and supporting them, just as people supported 
us in achieving their goals.
    I am looking forward to hearing from our witnesses today. I 
want to think not just the good they are doing, but also what 
we can learn from them about what works and how we can apply 
these lessons to programs we oversee, like the Temporary 
Assistance to Needy Families program, or TANF; the Fatherhood 
grants; and child support enforcement.
    We know that low-income fathers are among those who 
encounter multiple barriers to good jobs, and we know that 
State TANF programs are generally not assisting them, and child 
support enforcement programs are sending them a bill but not 
helping them to get a job to pay it. We know that the mothers 
served by TANF are encountering barriers to education and 
training that were created by Congress and keep them from 
getting good jobs.
    And we know that many families are struggling just to get 
the basics--food on the table, a roof over their heads, 
treatment for serious health conditions--and there is no point 
in trying to find them jobs until they have those basic 
necessities. There are many good things happening in 
communities across the country, but they are not available to 
everyone who needs them.
    TANF is supposed to help parents work, but what is clear 
from witness testimonies from this and past hearings is that 
TANF is not conducting quality workforce development with the 
array of services needed to support workers with multiple 
barriers. We should take these lessons about what works and 
apply them to create widely available opportunities for parents 
to succeed.
    Helping our citizens address these barriers and obtain 
quality, good-paying benefits our communities, our Nation, and 
our economy is in need. I, too, welcome our witnesses, and 
thank you again for holding this hearing.
    Chairman SMITH. Thank you, Mr. Davis.
    Without objection, others Members' opening statements will 
be made a part of the record. I would like to welcome our 
witnesses here today.
    First, we have Mr. David Ard, a senior vice president and 
global head of people and communications at Gap Inc. Next, we 
have Ms. Julie Shapiro, executive director of The Door, an 
organization in New York City. Next, we have Mr. Steve Staub, 
president and owner of Staub Manufacturing Solutions in Dayton, 
Ohio. And next we have Dr. Dan Lustig, president and CEO of the 
Haymarket Center in Chicago, Illinois. And then we have Mr. 
Glenn Johnson, the manufacturing workforce development leader 
at BASF Corporation in Houston, Texas.
    I now recognize Mr. Bishop for the purpose of introducing 
his constituent from Michigan.
    Mr. BISHOP. Well, thank you, Mr. Chair. It is my great 
honor to be able to introduce Barb Pilarski. Ms. Pilarski is 
the head of human resources for Fiat Chrysler North American 
Operations based just outside my district in Auburn Hills, 
Michigan. Similar to the others employers we have heard from in 
the previous hearings, Fiat Chrysler is also experiencing major 
workforce challenges, especially in finding workers for their 
manufacturing plants in order to keep up with the increasing 
demand for their vehicles.
    They have recently interviewed several thousand nonskilled 
employees to fill openings as part of their new 
industrialization plan, and several thousand more are 
forthcoming. They have also restructured their hiring approach 
and the interview process and are considering changing the 
requirement of a college degree to be a supervisor. To their 
great credit, Fiat Chrysler has been working proactively with 
United Way and other partner organizations to connect employees 
and potential employees--excuse me, employers and potential 
employees to support services they need to enter the 
successful--and be successful in the workforce.
    Ms. Pilarski, we appreciate you being here today to provide 
your perspective on the jobs gap, and we look forward to your 
testimony.
    Chairman SMITH. Thank you.
    Witnesses are reminded to limit their oral statements to 5 
minutes. All of your written statements, certainly in their 
entirety, will be included in the official record. We will 
begin with Mr. Ard. Begin when you are ready.

 STATEMENT OF DAVID ARD, SENIOR VICE PRESIDENT AND GLOBAL HEAD 
   OF PEOPLE AND COMMUNICATIONS, GAP INC., NEW YORK, NEW YORK

    Mr. ARD. Chairman Smith, Ranking Member Davis, and Members 
of the Subcommittee, it is an honor to be with you today at 
this very important hearing on the challenge of finding 
qualified workers to support our businesses and provide 
Americans more opportunities for jobs.
    I am here to talk about This Way Ahead, which is a Gap Inc. 
program that gives young people, especially those facing 
barriers to employment, an opportunity for their first job with 
an Old Navy, Gap, or Banana Republic store. Before I share more 
about This Way Ahead, I ask you to pause for just a moment and 
think about your first job and what it taught you.
    My first job was working at a video store. And through that 
job, I learned that my time was worth something, got a lot of 
great free movies, and working allowed me to pay my own way, 
which was really important. I grew up in a small town. My 
parents didn't have a lot of money, a small town in south 
Florida.
    A first job is an important milestone in every person's 
life. For many young people, especially those with limited 
opportunities, it can be life-changing and it can shape an 
individual's prospects for the future. In the United States, 
there are 4.6 million opportunity youth that are disconnected 
from school and from work.
    Research shows that not getting a first job as a teenager 
has a profound effect on your long-term earning potential. For 
example, being unemployed young can reduce earnings by as much 
as 20 percent for up to two decades. To address the challenge 
for opportunity youth, we recognized that we have two key job 
assets: jobs in our stores and the experience of hiring 
teenagers.
    In our company's nearly 50-year history, we estimate that 
we have given over 1 million youth their first jobs. It is a 
really important responsibility that we believe we have in the 
community. Our store managers are great at coaching, and they 
are great at development, and we know what it takes to help 
young employees get on the path to future success.
    So, in 2007, we designed This Way Ahead, and that was to 
give youth facing barriers a way to the workforce and a way up. 
Over the last 10 years, we have also come to recognize that 
This Way Ahead is very important for the long-term 
sustainability of our business. The program helps to expand our 
talent pool, to support business growth and foster a future 
customer base.
    Here is how the program works. In each of the locations 
where This Way Ahead operates, we team up with local nonprofits 
that run job training programs, like The Door that my friend, 
Julie Shapiro, runs in New York City. These nonprofit partners 
recruit motivated youth, ages 16 to 24, facing barriers to 
employment.
    Our local Old Navy, Gap, and Banana Republic store 
employees, they volunteer with the nonprofits to help support 
training, making connections with the youth. Our employees run 
workshops on topics like customer service, conflict resolution, 
as well as presentation skills.
    When the training ends, youth apply and store managers 
interview them. Thanks to the volunteer interactions prior to 
the interviews, the youth and our hiring managers, they aren't 
meeting for the first time. So, it is not a high-stakes 
interview. One of the key differentiators lies in the interview 
itself. We guide the hiring managers to hire for potential, not 
credential: a prevalent openness to feedback, and work ethic. 
Since those are two factors that contribute to success, the 
youth who demonstrate these attributes are hired to work in an 
Old Navy, Gap, and a Banana Republic store. And even more 
important than getting a job is keeping that job.
    In addition to store managers who offer guidance and 
feedback, we also build another support system to help keep 
youth employed. Each This Way Ahead participant has what we 
call a Big Sib, who helps them and supports them on questions 
that they have and questions that they may not want to ask 
their managers. I think we all need a Big Sib sometimes in our 
life. It goes into things like how their locker works or where 
they eat lunch.
    There is also a job coach from the nonprofit who meet 
regularly with the youth to provide additional support and 
advice on issues that may come up at work and home. All these 
supports, in addition to the exposure of Gap Inc.'s culture and 
values, help to make the youth feel at home and welcomed into 
the family. They know we believe in them, and they want to 
succeed.
    I want to give a brief example and a story of Dashawn 
Hightower--he is a This Way Ahead alumnus--that underlines the 
importance of these supports. Dashawn currently works at one of 
Gap Inc.'s largest stores, our Old Navy at 34th Street in 
Manhattan. He is a business and operations training specialist, 
and he is the oldest of three children. He lives with his mom 
and his sisters in the Bronx.
    Dashawn started his career with us at This Way Ahead, 
participated in our Old Navy store in Harlem, New York. In his 
words: This Way Ahead was a struggle. There were times when I 
was late or got written up, but my managers pushed me. They 
didn't give up on me. Finally, my manager, Yeera, pulled me to 
the side and asked, what is it you want to do with this 
opportunity? I thought I had joined the program to become a 
sales associate and get a check. She made me realize that this 
was only the beginning. If I worked hard enough, there was a 
real opportunity to grow within the company. That is what it 
took to turn me around.
    Dashawn has continued to grow his career with our company. 
He has held multiple specialist roles and has been promoted 
several times. He is now supervising This Way Ahead 
participants, helping others to see the opportunities to 
advance professionally.
    I will give a couple of statistics, for the purpose of 
time, and I would be very happy to answer questions as we go 
forward. But a few things in terms of our results and things 
that give us confidence that there is greater opportunity for 
us to move forward: 71 percent of This Way Ahead participants 
improve their soft skills, so things like decision-making and 
time management; 72 percent of our alumni from 2007 to 2016 are 
employed in at least one paid job, versus 55 percent of 16 to 
24 year olds in general U.S. population; 81 percent of This Way 
Ahead store managers said that This Way Ahead increases their 
pride in working for our company; and 66 percent said it gives 
them a lot more--said it makes them a lot more willing to go 
above and beyond what is normally expected to help their brand 
succeed.
    We give advice to other employers all the time. Do not 
underestimate the valuable talent you may be overlooking by 
relying on traditional recruitment and training practices. 
Programs like This Way Ahead demonstrate that we do not need to 
choose between what is good for the community and what is good 
for business. We can have both. We can have them at the same 
time, and we can create sustainable programs that benefit all 
of us. Thank you.
    Chairman SMITH. Thank you, Mr. Ard.
    [The prepared statement of Mr. Ard follows:]

  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

                                 <F-dash>
    Chairman SMITH. Ms. Shapiro, you may begin.

 STATEMENT OF JULIE SHAPIRO, EXECUTIVE DIRECTOR, THE DOOR, NEW 
                         YORK, NEW YORK

    Ms. SHAPIRO. Chairman Smith, Ranking Member Davis, and 
Members of the Subcommittee, I am honored to be with you today 
at this important hearing on jobs and opportunities. My name is 
Julie Shapiro, and I am the executive director of The Door in 
New York City.
    For over 45 years, The Door has served as a vital resource 
for New York City's young people, including those facing 
homelessness, unemployment, poverty, and deportation. The 
Door's mission has always been to empower young people to reach 
their potential by providing comprehensive youth programs in a 
diverse and caring environment.
    Each year, The Door works with nearly 10,000 young New 
Yorkers, ages 12 to 24. We offer comprehensive integrated 
programs free of charge, confidentially, and all under one 
roof. They include primary and behavioral healthcare; 
education; career training, and internships; creative arts 
programs; healthy meals and nutrition counseling; legal and 
immigration services; and supportive of housing.
    The Door provides career and education services to 3,400 
young people annually, 1,200 of whom are disconnected youth. We 
know that for many low-income young adults, three intertwined 
challenges impact their ability to gain a foothold in the labor 
market. They are: one, minimal educational attainment and basic 
skills; two, limited job opportunities; and, three, limited 
access to living wage career paths.
    The retail industry, our Nation's largest employer, 
provides genuine opportunities to address these challenges, due 
to a willingness to hire young adults, low entry-level skill 
requirements, anticipated growth, and advancement 
opportunities. Part-time retail jobs provide flexibility to 
meet competing needs for immediate work and continued 
education, and these jobs build skills valued throughout the 
labor market.
    For more than 15 years, The Door has been committed to 
tapping into the retail sector. Our longstanding, employer/
nonprofit partnership with Gap Inc. has been the cornerstone of 
our pioneering retail sector training programs. We have been 
working together and building a team that finds solutions that 
work for Gap and for young people from the development of first 
pilot site at This Way Ahead in 2007 with 11 interns. This 
year, 11 years later, we are preparing to place 414 youth in 
internships across more than 60 stores in New York City and 
Westchester County. In 2019, we anticipate growing the program 
to 500 interns. As far as we know, this is the largest 
employer-led internship initiative in the entire company.
    This Way Ahead internships are designed to provide youth 
with invaluable hands-on experience in the workforce, often for 
the first time. Participants gain essential and transferable 
job skills, as well as in-depth knowledge of the retail 
industry. Interns receive ongoing mentoring and supervision 
from store managers who have participated in related training. 
Participants are also encouraged to take advantage of The 
Door's entire suite of support services to address any barriers 
they may face, so that they remain engaged in their internship. 
Our unique model ensures that anything a young person needs is 
available at The Door, from academic tutoring, to help applying 
to college, to healthcare.
    The results have been remarkable to date. Over 11 years, of 
the more than 1,500 young people who have completed our 
training, 62 percent were offered internships, 89 percent of 
those completed their internships, and 72 percent of those 
received job offers. This Way Ahead graduates stay with the 
company twice as long as their peers and have higher engagement 
scores than their coworkers. Third party evaluations have 
demonstrated that This Way Ahead participants also improve 
their confidence and on-the-job skills.
    Here is what I think is the best evidence of our success, 
and David mentioned this, but I think it bears repeating: 72 
percent of program alumni from the first 10 years are currently 
employed in at least one paid job versus 55 percent of 16 to 24 
year olds in the general U.S. population. Significantly, our 
partnership has paved the way for Gap Inc. to expand This Way 
Ahead to 32 additional U.S. cities.
    This Way Ahead is a model of how companies and nonprofit 
organizations can collaborate to make an impact on the lives of 
thousands of disconnected youth. Many companies want to do the 
right thing and hire young people in the community. Our 
partnership with Gap Inc. shows this can be brought to scale, 
but only if there is a strong partnership with an experienced 
youth development organization.
    I am grateful to Gap Inc. for their outstanding leadership 
and partnership, and I encourage the Subcommittee to look at 
ways to develop and fund programs like This Way Ahead. Thank 
you for your time.
    Chairman SMITH. Thank you.
    [The prepared statement of Ms. Shapiro follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                                 <F-dash>
                                 
                                 
    Chairman SMITH. Mr. Staub, you are recognized for 5 
minutes.

     STATEMENT OF STEVE STAUB, PRESIDENT AND OWNER, STAUB 
             MANUFACTURING SOLUTIONS, DAYTON, OHIO

    Mr. STAUB. Good morning, Chairman Smith and Ranking Member 
Davis----
    Chairman SMITH. You might want to turn your microphone on 
there.
    Mr. STAUB. Good morning, Chairman Smith, Ranking Member 
Davis, and Members of the Subcommittee on Human Resources, 
thank you for allowing me to be here today. I am Steve Staub, 
president of Staub Manufacturing Solutions in Dayton, Ohio, a 
business my sister and I started with the help of our father 
that specializes in manufacturing fabricated metal components 
and assemblies from everything from locomotives to agricultural 
equipment, and retail displays.
    I care a lot about manufacturing in our country. That is 
why I am here today, and that is why I am proud to serve on 
boards of organizations like the Ohio Manufacturer's 
Association, or the OMA, and the National Association of 
Manufacturers, the NAM.
    Nationwide, manufacturers employ more than 12 million 
people, as the NAM recently found in its manufacturing outlook 
survey. Since the tax reform was passed, the manufacturer's 
optimism is at an all-time high. At Staub, like many small- and 
medium-size manufacturers, we have been struggling in the past 
just to keep our doors open.
    Now, since the debate and passage of tax reform, we have 
been able to invest in new equipment, expand our facility, hire 
new employees, and provide our people with bonuses and pay 
raises. There are many other examples like ours across the 
country. In fact, the NAM recently launched a new campaign, 
called Keeping Our Promise, that highlights these stories. But 
while manufacturers are growing and creating jobs, we are also 
having difficulty finding enough workers to fill those jobs.
    Approximately 426,000 U.S. manufacturing jobs are going 
unfilled today, because there are simply not an enough 
qualified applicants to fill them. Over a 10-year period, that 
number is going to rise to 2 million if we don't do something 
now. So what can we do? Well, quite a few things, actually. 
Here are some basic points.
    First, there is what groups like the NAM and OMA are doing. 
They are working hard to support the next generation of 
manufacturing workers through various incentives, and progress 
has been made, in particular, in encouraging veterans, women, 
and other underrepresented populations as well as showcasing 
the promise of manufacturing to America's youth.
    Second, there is what manufacturing companies can do as an 
individual. At Staub, we have developed some recruiting 
strategies that may be considered somewhat unconventional. We 
have been working with a local anti-poverty agency, for 
example. And we have often welcomed team members to our 
finishing department with little or no skill, teaching them a 
trade and giving them plenty of opportunity for advancement. We 
believe in hiring for attitude and training for skill.
    Not only is this the right thing to do for our communities, 
but we believe there is also a strong business case to take on 
harder to serve individuals as well. And the result of our 
efforts has led to improved employee retention and loyalty.
    Third, there is work being done with local education 
institutions. I am very engaged in our local schools to get 
students involved in manufacturing. A few years ago, a group of 
us got together and started a nonprofit called Xtreme STEM to 
get kids excited about the manufacturing industry. We host 
robotic and 3-D printing competitions with names like Xtreme 
BOTS and Xtreme 3D.
    Other opportunities include apprenticeships, various 
workplace learning opportunities, and certificate programs that 
combine classroom time with work experience. Our company, like 
many others, also offers 100 percent tuition reimbursement.
    Fourth, there is what policymakers can do. Manufacturers 
appreciate the House passing the bipartisan Strengthening 
Career and Technology Education for the 21st Century Act. We 
hope it will pass the Senate soon, too. In addition, there is 
more that elected officials can do to help support communities 
like ours that have been impacted by the horrific and 
absolutely devastating opioid crisis.
    When someone survives addiction, they need more help, they 
need tools and strategies to keep off drugs and get back into 
the workforce and stay employed. Finally, we need a continued 
commitment to the kind of programs--policies like tax reform 
that helped create today's manufacturing renaissance in the 
first place.
    Manufacturing offers many promising career options, often 
without the financial burdens of college debt. And the average 
manufacturing worker earns about 27 percent more in wages and 
benefits than their peers. These well-paying jobs are in 
modern, high-tech, and a growing industry, and they are ready 
to be filled today. In fact, let me say this. Right now, we 
have $500,000 in paid benefits and training to give away to 
five people, but we are having trouble finding those people.
    Here is what I would say to your constituents: It is not 
difficult to get this money, just show up every day, be willing 
to learn, be drug-free, and we will teach you the skills that 
you need to know. I imagine countless other manufacturers 
around the country feel the same way and have the same 
opportunities. In the meantime, we are going to keep working 
hard to tackle the skills gap. We appreciate what you are 
doing. Thank you.
    Chairman SMITH. Thank you, Mr. Staub.
    [The prepared statement of Mr. Staub follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   

                                 <F-dash>
    Chairman SMITH. Dr. Lustig.

 STATEMENT OF DAN LUSTIG, PSY.D. CAADC MISA II, PRESIDENT AND 
            CEO, HAYMARKET CENTER, CHICAGO, ILLINOIS

    Mr. LUSTIG. Good morning, Chairman Smith, Ranking Member 
Davis, and Members of the Subcommittee. Thank you for allowing 
me to testify this morning. My name is Dr. Dan Lustig. I am the 
president and CEO of Haymarket Center in Chicago. It is the 
largest and most comprehensive provider of treatment for 
substance use and mental health disorders in Chicago, founded 
in 1975 by Father Ignatius McDermott.
    Haymarket Center has grown to serve over 12,000 individuals 
annually in over 30 specialized treatment programs and work 
development programs. Haymarket Center serves individuals 
suffering from addiction, especially those presenting with 
histories of unemployment, homelessness, criminal justice 
involvement, trauma, and mental illness. Haymarket Center's 
recovery support infrastructure helps clients sustain recovery, 
minimize relapse, and improve overall quality of life, through 
its onsite provision of services that go far beyond the scope 
of most treatment programs. For example, with family medicine 
and psychiatry, child care, and job training.
    Problems with employment are common among individuals with 
substance use disorders, yet comprehensive vocational services 
are not generally available to them, and vocational 
interventions are often not matched to their specific needs. 
Substance use and other barriers have been identified as an 
important problem to address among the hard-to-employ TANF 
recipients and other entitlement programs.
    A diverse set of factors have been identified as potential 
barriers to employability. These include situational factors, 
such as transportation; human resource factors like low 
literacy or low job skills; and personal problems, such as 
domestic violence or substance use disorders.
    Studies indicate that the presence of these barriers, and 
especially the co-occurrence of multiple barriers, is 
associated with lower likelihood of employment. Over the past 
two decades, there have been numerous programs attempting to 
add additional requirements on a vulnerable population without 
understanding that all barriers to employment must be addressed 
and in place for individuals to be successful.
    In general, low-income individuals and users of public 
benefits do not have substance use disorders at a higher rate 
than the general public. It is just that when they do, it is 
very clear that they have fewer resources to address them.
    In 2011, Haymarket Center received a Pathways to 
Responsible Fatherhood grant from the Administration for 
Children and Families to serve low-income fathers in Chicago 
who are both entering treatment for substance use disorders and 
estranged from their children because of their drug use. The 
project enrolled over 1,300 fathers. Most of these fathers 
resided in low-income communities on the south and west sides 
of Chicago. These neighborhoods have the highest murder rates 
and drug arrest rates in the Nation. All of these fathers 
served through the program had complex problems in addition to 
their substance use disorders.
    Other barriers included involvement in the criminal justice 
system, unemployment, lack of housing, little to no work 
history, low educational levels, multiple children from 
different mothers, and co-occurring mental illness and other 
chronic diseases. Of the participants that we enrolled, 61 
percent were African American, 8 percent Hispanic, 27 percent 
White; 46 percent of the sample had GED or a high school 
diploma; 64 percent were never married; 74 percent had a family 
history of substance use; 48 percent lived below the federal 
poverty level; 55 percent were currently involved in the 
criminal justice system; 64 percent report being victimized as 
children and young adults; 39 percent were reported severe 
victimization, including weapons; 76 percent reported extensive 
history of running away and period of homelessness; 48 percent 
reported use of alcohol and drug use under the age of 15; 29 
percent reported history of depression and suicidal ideation; 
73 reported a history of profound trauma.
    This representative sample demonstrates that many of the 
individuals have multigenerational barriers, that if we do not 
continue to wrap around services around this population, they 
will not be able to achieve a stable employment history. Over 
the course of the past two decades, there have been two 
specific times when the government attempted to place work 
requirements on this vulnerable population, both times failing 
in that they did not address the barriers to sustain 
employment.
    Our program at Haymarket Center, once their addiction was 
stabilized, fathers were able to focus and meet the demands of 
sustained work. Fathers began job readiness training program by 
meeting with a vocational counselor who administered a 
vocational assessment, health questionnaire, and criminal 
background check. The vocational counsel then worked with 
clients to develop an individual employment plan, informed by 
the assessments. This IEP actually helped individuals get 
connected to employment, that connected to a lot of different 
resources that were not previously available to them because 
their addiction and other illnesses and other conditions were 
not stabilized.
    In general, it is absolutely critical that we wrap services 
around individuals if we look at increasing work requirements. 
Right now, the work requirements will take enormous resources 
that many States don't have. And it is important that the 
Federal Government continue to support government supported 
programs and resources as we move forward. Thank you.
    Chairman SMITH. Thank you, Dr. Lustig.
    [The prepared statement of Mr. Lustig follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   


                                 <F-dash>
    Chairman SMITH. Mr. Johnson, you may begin.

STATEMENT OF GLENN JOHNSON, MANUFACTURING WORKFORCE DEVELOPMENT 
            LEADER, BASF CORPORATION, HOUSTON, TEXAS

    Mr. JOHNSON. Thank you, Chairman Smith and Ranking Member 
Davis for allowing me to testify today and to the rest of the 
Committee. BASF is the second largest producer of chemical 
products in North America. At BASF, we create chemistry for a 
sustainable future. Sustainability includes the environment and 
the economy but also people, and that is what I am here to talk 
about today.
    Some say that jobs in manufacturing are dead-end jobs. But 
I am here today to testify that these jobs do not have a 
ceiling; they have options. Some of us prefer the exciting, 
hands-on aspects of technology roles, and some seek 
administrative work. Manufacturing provides opportunities for 
both, today.
    Ms. Jana Truett was a cashier in a pharmacy when she 
decided to get her associate's degree in process technology. 
She began work with BASF as an operator and now trains others 
in technology. Ms. Jalisa King was a cook when she decided to 
get her associates degree. She is now an operator and part of 
our ambassador team, telling her story to other young women. 
Ms. Tara McMahon worked in a rec center. After completing her 
associates degree, she now works as a laboratory technician.
    I, personally, 22 years ago, was a proud young man living 
in a trailer park in western Kentucky with only a high school 
diploma whenever I began my first manufacturing job. I ran 
assembly lines, and stacked cases of product. And as I worked 
through the ranks, I took advantage of a tuition reimbursement 
program. I progressed into leadership roles while continuing to 
train and educate, with the support of my manufacturing 
employer. That proud man from the trailer park sits before 
Congress today to tell you that the manufacturing industry 
changed my life, and it changes people's lives in the same way 
every day.
    Recently, there has been national discussion about the jobs 
gap. However, if we are to solve this issue, we must treat the 
root cause, not the symptom. The lack of skilled workers, for 
example, is the symptom. The root cause, however, is much more 
basic. In this country, we have allowed a narrative to develop 
that the best jobs are no longer in manufacturing. From parents 
and teachers to fictional characters portrayed on television, 
the way we talk about certain careers has led to a lack of 
interest in them, and we compound the problem by leaving 
information out during counseling. We tell kids: Dream big; you 
can do anything you want.
    And although I believe this general direction to be 
correct, it is profoundly incomplete. If a thousand children 
dream to have a job that has two openings, 998 of them will be 
unemployed, even if they are all straight A students. Countless 
stories about graduates that cannot find jobs have become a 
norm, seemingly accepted by society.
    Coexisting with this norm is the fact that industries like 
manufacturing simply cannot find enough workers for jobs that 
most often pay more, have better benefits, and are in every way 
as professional of a career than the jobs that these unemployed 
and misinformed Americans sought. We must assure that job 
availability is a part of the counseling we provide to 
students, transitioning veterans, and other retooling adults 
whenever they are making education and training decisions.
    Collaboration with our industry partners is pivotal in 
regional and national workforce development strategy. Instead 
of BASF creating a pipeline for our own needs, we work with our 
industry partners to determine the needs of the region to 
create a workforce pipeline that supplies us all. Within the 
East Harris County Manufacturers Association in Houston, Texas, 
BASF joins with 12 colleges and 130 manufacturing and 
contractor companies to identify the critical crafts for that 
region and agree on the competencies needed.
    Within the National Association of Manufacturer's ``Dream 
It Do It'' platform, BASF joins with multiple industry 
partners, where in 2017 alone, in one area of the country, we 
delivered what we referred to as the manufacturing value 
proposition to over 11,000 students and over 1,600 teachers, 
parents, and other community representatives.
    Within the North American process technology alliance, BASF 
joins 49 colleges, 22 industrial organizations, and 19 vendors 
across America. Here we focus on curriculum and instructor 
skills for the process technology associate's degree.
    We can no longer hit the snooze button on the jobs gap. We 
must change our messaging to entice workers to seek jobs that 
are readily available. We must create education success metrics 
that indicate if we are filling the jobs most needed for 
America's sustainability, not just how many people have 4-year 
degrees.
    The Department of Labor must provide job projections 
directly to the Department of Education within an aligned and 
specific strategy to guide education funding pursuit, as well 
as spending decisions for program development incentives.
    Chairman SMITH. Thank you, Mr. Johnson.
    [The prepared statement of Mr. Johnson follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       


                                 <F-dash>
    Chairman SMITH. Ms. Pilarski.

 STATEMENT OF BARB PILARSKI, HEAD OF HUMAN RESOURCES, FCA U.S. 
                  LLC, AUBURN HILLS, MICHIGAN

    Ms. PILARSKI. Chairman Smith, Ranking Member Davis, and 
Members of the Subcommittee, thank you for the opportunity to 
contribute to the discussion on how to address industry-wide 
job gaps. As Head of Human Resources at Fiat Chrysler 
Automobiles, I am responsible for more than 60,000 employees in 
the U.S., many of whom live in Congressman Bishop's district.
    Since June 2009, the company has created more than 28,000 
new jobs and invested more than $10 billion in the United 
States. We are justifiably proud of our growth in the U.S. over 
the last decade, but it also creates a challenge: finding the 
talented workers who will build our cars and trucks in the 
future.
    Our assembly line workers operate under a production 
methodology that we call World Class Manufacturing, or WCM, 
which relies heavily on employee engagement and leadership on 
the shop floor. The results of WCM have exceeded our 
expectations in health and safety, quality, productivity, 
morale, and other key measures.
    To continue to realize these kinds of benefits, we need our 
future assembly line workers to be idea generators, critical 
thinkers, problem solvers, and good communicators. We at FCA 
face two interrelated challenges in achieving this. First, our 
high school education system does not adequately expose 
students, especially those who may not be interested in a four 
year college degree to the manufacturing sector and the 
attractions of careers in this area.
    Second, this same education system has been inconsistent in 
terms of providing all graduating students with the skills to 
keep pace with the evolution of the automotive industry. We 
need to build a stronger pipeline of workers at FCA, and we 
have already begun to do this. For example, in 2013, we 
initiated a partnership with Ivy Tech Community College in 
Kokomo, Indiana, to launch the Integrated Technology Education 
Program, also known as ITEP.
    ITEP's goal is to reach high school students, including 
students from Congresswoman Walorski's district who are 
interested in manufacturing. The program exposes these students 
to manufacturing theory and concepts beginning sophomore year, 
followed by opportunities to shadow workers in a manufacturing 
facility during senior year. High school students who complete 
the ITEP program are eligible to receive free tuition for a two 
year technical associate degree from Ivy Tech.
    This fall, we plan to launch a pilot co-op program at a 
Michigan Community College. The two year program combines 
classroom learning for four days a week with one day a week of 
work experience in one of our manufacturing facilities. 
Graduates of the program will be interviewed for supervisory 
jobs in our own plants.
    Employers today have to think creatively about how to 
better prepare and support the good people we hire. For 
example, we recently redesigned our hiring and onboarding 
process for more than 2,800 new employees who will build Ram 
pickup trucks in Michigan to acclimate them to what it is like 
to work in an assembly plant before they even set foot on the 
shop floor.
    We have also begun looking at ways to leverage our 
longstanding relationship with the United Way of Southeastern 
Michigan to provide other support and assistance to our workers 
to enable them to address challenges, such as the lack of 
reliable transportation and childcare, as well as to create 
employment opportunities in our plants to support the 
meaningful efforts that United Way is undertaking to get people 
back to work.
    I would like to leave you with two suggestions on ways you 
can support employers like FCA. First, please continue to 
support and fund programs like the Department of Labor's Youth 
Career Connect Program, which supports educational partnerships 
like the ITEP program in Indiana. And, second, consider 
enhancing support for vocational education at high schools and 
community colleges. Manufacturers like FCA are reaching out to 
local schools to generate interest, but these efforts are 
piecemeal and specific to each company.
    We need your help to take a comprehensive approach. This is 
so important, not just for us at FCA but for the suppliers and 
small businesses that we depend on for the components we 
utilize to build our cars and trucks. Thank you.
    [The prepared statement of Mr. Ard follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       

                                 <F-dash>
    Chairman SMITH. Thank you. I appreciate all of the 
testimony here. We will move into questions from myself and 
Members on both sides. I do want to point out that Nebraska is 
a great place to do business, but we need more workers. And 
having too few people for quite a while now to fill many 
positions, I just don't want this to turn into lost 
opportunity. And so, I am glad that we can have this discussion 
that is particularly timely.
    Mr. Ard, I understand you have a new partnership with the 
Boys & Girls Clubs nationally, which will allow you to expand 
your program, right?
    Mr. ARD. Correct.
    Chairman SMITH. I also understand that you will now be 
having a presence with this program in Nebraska, although not 
in my district. There are only three House Members. We get 
along well and are proud of each other's advances in our 
respective districts in Nebraska.
    But can you perhaps talk about why you believe it is 
important to expand beyond the major markets of say New York 
City, Chicago, and L.A. to places like Omaha?
    Mr. ARD. Yeah. Thank you very much. As you mentioned, we 
will be going into the Nebraska market through an extended 
partnership with the Boys & Girls Clubs of America. We are 
going to go into 22 new cities that we are not currently 
operating in, and we are very excited about that, by the way. 
Let me give you a couple of details that we believe----
    Chairman SMITH. Because it's Nebraska, right?
    Mr. ARD. Nebraska. It is. So, let me give you a couple of 
details that we think are key ingredients to these 
partnerships. So, we look for a local youth-serving nonprofit, 
and particularly one that runs training programs. As I 
mentioned about the Big Sibs and some of the back-office 
support, if you will, for our trainees, it is super important.
    We look for employee volunteers from our Old Navy, from our 
Gap, as well as from our Banana Republic stores, who are going 
to work with the local nonprofits again to support the 
training, as well as to make the connections with the youth, 
and who also have an interest in their community. We look for 
store managers who hire for potential and not credential. So, 
they are probing on openness. They are probing on feedback, 
work ethic. And, you know, we see that the interview approach 
is a key differentiator, and so it is a core ingredient to our 
ability to be successful as we go into a new market.
    Support for youth post-hire is critically important. It is 
one thing to get the job; it is another thing to keep the job. 
In addition to store managers who offer the guidance and the 
feedback through the This Way Ahead program, we have 
established the Big Sib. And, again, this is someone who is 
there for you, who is answering all your questions, things you 
might not be interested in asking your manager directly, and it 
just gives that supplemental support that they may not be 
getting anywhere else in their life.
    All of these supports, and in addition to exposure to Gap 
Inc.'s culture as well as our values, help to make you feel 
welcome and at home, and we know that they feel that they are 
believed in.
    Chairman SMITH. Very good. Thank you.
    Mr. Staub, you have been sounding the alarm about the jobs 
gap for quite some time, well before it was on a lot of the 
other folks' radar. Can you tell me what motivates you to keep 
beating this drum about the workforce and taking what others 
perceive as risks in who you hire and devoting your personal 
time to engaging with junior high and high school students?
    Mr. STAUB. Thank you. Simply, it is the right thing to do. 
I am third generation in the manufacturing industry and fifth 
generation in Dayton, Ohio, and I have seen over the years how, 
with the opioid epidemic and other things, how we have had a 
lot of people that have somewhat been lost, I could say. And 
the industry has continually grown, and it has worked out 
well--it is just something I am passionate about to try and get 
people into the industry.
    Interacting with high school and middle-aged kids, I see 
that the schools aren't--like was said previously--aren't 
really conveying the message that you can be successful without 
a 4-year degree. I went to college for a year and a half and 
took a year off and never quite made it back. And there is a 
lot of us out there that weren't college material but have been 
very successful by following a path in the manufacturing and 
trades industry.
    Chairman SMITH. Very good. Thank you. I think these items 
that you have raised and others on the panel have raised that 
there is more than one path to success than a 4-year degree. 
And I think we have turned the corner a bit on this, and 
certainly I am a big fan of our community college system that 
can work with the private sector very effectively and 
efficiently as we do address this problem. And, hopefully, we 
can see it as an opportunity to get folks back on to the 
economic playing field and off the sidelines where it currently 
is just posing some challenges and lost opportunities.
    So, with that, I will recognize Mr. Davis for 5 minutes for 
his questions.
    Mr. DAVIS. Thank you, Mr. Chairman.
    I thank all the witnesses for your testimony. Dr. Lustig, 
evidence shows that substance abuse disorders don't 
discriminate, that wealthy people are just as likely to use 
drugs as poor people. But poor people who are poor, especially 
those in poor communities, do have a harder time getting 
support and treatment than those with more resources, 
especially in States that did not expand Medicaid under the 
Affordable Care Act; they may not have access to treatment. And 
even if they can access treatment, they may struggle to pay for 
childcare or rent while they are in treatment, and they may be 
less likely to have jobs waiting for them when they get out.
    What are some of the additional supports you provide to 
your clients to make sure that they can get treatment and be in 
a position to get a job?
    Mr. LUSTIG. So, first and foremost, Haymarket Center is a 
400-bed residential complex on the west side of Chicago, and 
our goal is to offer a very comprehensive program with 
immediate access to care. So, once we stabilize individuals in 
treatment, one of the key components in keeping individuals 
sustained in recovery is job placement. And it is not just 
getting someone stabilized on a medical disorder that is also 
as critical, but so many of the patients that we see, which is 
about 12,000 a year, actually have so many additional barriers.
    And so, one of the three things that we do at Haymarket 
Center that moves people into recovery quicker is that we not 
only address the addiction, the mental illness, and any kind of 
medical disorders that a patient presents with, but we have a 
job readiness program, and that really starts to, as a person 
finishes treatment, that is a time when we are able to work 
with individuals, begin the soft skills training, and really 
begin to rebuild a person. That still is not quite enough when 
you deal with individuals with long-term addiction.
    What is key is that we have what are called job coaches and 
recovery coaches. That is a program that follows individuals 
for 1-year post-treatment, and that is what we have learned to 
be really key components for individuals who are leaving 
treatment, is that we follow them for a year. And employers 
actually begin to build a level of credibility when they know 
that somebody else is involved with that individual. And so, 
our program--our job training program focuses on job coaching 
and mentoring and addressing those skills as a person moves 
through what is called ``early recovery.''
    Mr. DAVIS. Does your agency get any support from TANF?
    Mr. LUSTIG. Yes, we do. We are an agency that has extensive 
support from TANF. We couldn't do what we do if it wasn't the 
support from TANF, both as it comes to addressing our entire 
issue. About 6 years ago, we took on a family-based model, and 
that model was designed not just to treat the individual 
patient but the entire family because addiction impacts the 
entire family. And so, we have had mothers and fathers who are 
not just impaired when it comes to addictions, but a lot of the 
kids are also failing in schools and need support. And so, a 
lot of our programs go out into the community and work with the 
entire family in addressing issues that the family needs to 
address to heal them.
    Mr. DAVIS. Mr. Johnson, does your program get any TANF 
support?
    Mr. JOHNSON. It is not something I have information for 
today, but I can absolutely get back to you on that.
    Mr. DAVIS. Ms. Pilarski, does your organization get TANF 
support?
    Ms. PILARSKI. Can you please repeat the question?
    Mr. DAVIS. Yes. Do you have any support from TANF for the 
work that you do?
    Ms. PILARSKI. I would also have to get back to you on that. 
We certainly have programs for our employees who are suffering 
from substance abuse, individualized programs to help identify 
those employees and then respond to those issues.
    Mr. DAVIS. Mr. Staub, do you get any?
    Mr. STAUB. I do not believe so.
    Mr. DAVIS. Ms. Shapiro?
    Ms. SHAPIRO. We do not.
    Mr. DAVIS. Mr. Ard?
    Mr. ARD. We do not. No specific plans at this time.
    Mr. DAVIS. Well, I thank each one of you very much. And my 
point is that there is room for TANF to provide support that is 
currently not providing to some of the agencies that are doing 
the work.
    I yield back.
    Chairman SMITH. Thank you. I now recognize Ms. Walorski for 
5 minutes.
    Mrs. WALORSKI. Thank you, Mr. Chairman.
    Thanks to all of you for being here to talk about the jobs 
gap.
    Mr. Ard, just a quick question. I am curious, when your 
folks are interviewing these applicants and you talk about what 
they are looking for--they are kind of perusing with questions 
on openness to feedback and work ethic, what are some of those 
questions? How do you actually get in there and assess that? 
Just give me an example of like two questions.
    Mr. ARD. Absolutely. I mean, challenges that someone has 
overcome, that is certainly a very important way by which you 
can understand what someone has overcome, as well as what their 
determination is. Grit is really important as we think about 
that path to determination. And what they have learned from 
their job training, that curiosity and that willingness and 
that openness to have your mind changed. Those are two areas 
and two fundamental sort of ways we go about asking questions 
to get at that.
    Mrs. WALORSKI. Interesting. I appreciate it.
    And, Ms. Pilarski, thanks for all your work you are doing 
in my district to drum up interest in manufacturing. It is a 
challenge that is pretty well documented across my district in 
northern Indiana. Lots of manufacturing, and lots of 
manufacturing jobs, and no bodies to put in them. I am 
interested to learn more about this ITEP program that you 
started with Ivy Tech.
    You mentioned 45 others companies have joined ITEP. How do 
you work with those other companies, and are the other 
companies competitors or in different industries? And then are 
the students, when they are shadowing somebody, are they just 
shadowing you, you know, some of these other competitors? How 
does that whole process work?
    Ms. PILARSKI. Thanks for the question. We are really proud 
of the program. Ivy Tech--we sort of divide up the 
responsibility for this important initiative among the folks 
that have the competencies. So, there is not a lot of 
interaction that we have with the other 45 companies, we 
interact directly with Ivy Tech. Ivy Tech is the organization 
that determines the curriculum that the students are taught in 
sophomore year, which eventually leads to a certified 
production certificate for them.
    What we do is we expose these students to manufacturing. 
So, beginning in their senior year, we invite them into our 
plants, and we have a very structured 12-week program. So, they 
come to us a few days each week, they have two rotations 
through two of our plants, and they have three assignments in 
total. And they are given coaches because the most important 
thing we are going to teach these kids in 12 weeks isn't 
necessarily technical skills; we are going to teach them soft 
skills.
    So, we want to make sure they know they need to show up at 
work every day, that they need to be there on time, that they 
need to be part of an important team. They need to ask 
questions. All of those kinds of things that may be very 
natural to a lot of kids aren't always natural to all kids. So 
that is our role.
    So, we expose these kids to manufacturing. They make it 
through their associate's degree. Right now, we have some that 
have come back to us now doing summer internships, who we think 
have great promise, and our hope is that we start offering them 
full-time jobs when they complete their associate's degree.
    Mrs. WALORSKI. So, given the fact that these are young 
people coming right out of high school and they really don't 
have these skills that you are trying to teach them, soft 
skills, show up, it is important. How do you do that with a 
young person that comes in the door? Is this competitive where 
they are competing with each other? Are you incentivizing them 
when they do something correct that they have got what you are 
trying to tell them? What do you do?
    Ms. PILARSKI. We assign mentors. We assign one-on-one 
mentors. Every one of these kids has a mentor that follows them 
through these assignments. And those mentors are meeting with 
the kids. They are giving them guidance. They are talking to 
the supervisors that have exposure to the kids. So, we are 
giving them sort of real-time feedback and help molding them as 
they make it through this 12-week process. And that is really 
the way you do it. You team up--you really find support and 
assistance in that way. We find that to be the most effective.
    Mrs. WALORSKI. I appreciate it.
    I yield back, Mr. Chairman. Thank you.
    Chairman SMITH. Thank you.
    Next, recognizing for 5 minutes, Ms. Chu.
    Ms. CHU. Ms. Pilarski and Mr. Johnson, I would like to 
direct my first questions to both of you. Many of the programs 
you highlighted today are offered to youth in high school or 
individuals in the early stages of their career. However, there 
are other populations that are willing to work and able to work 
but would have difficulty following those pathways.
    According to the Migration Policy Institute, 25 million 
individuals in the U.S. are considered limited English 
proficient, or LEP. In my region of the Los Angeles metro area, 
26 percent of the total working age population is LEP. In 
addition, 47 percent of adults who speak Asian or Pacific 
Island languages are LEP, which is the highest percentage of 
any linguistic group, including Spanish-speaking individuals.
    These statistics are very relevant to today's discussion 
because LEP individuals are more likely to live in poverty than 
English proficient individuals. In 2015, about 23 percent of 
LEP individuals lived in households with an annual income below 
the official federal poverty line, which is nearly twice as 
high as the share of English proficient persons.
    Ms. CHU. Now, there are companies that are helping LEPs 
gain English skills to help fill jobs. The Boston Globe 
reported in January of 2017 that companies who are facing 
worker shortages have started offering English classes free of 
charge at work sites for its employees. Employees are paid the 
normal wage while they are in class. Companies are finding that 
investing in English skills and other kinds of training helps 
them retain employees, helps them promote from within the 
company, and has helped employers identify workers whose 
potential was previously hidden behind a language barrier.
    In addition, errors are reduced, and employees can provide 
better customer service. Employers are offering this benefit in 
a range of industries from hospitals to manufacturing to food 
service companies. So, this is one way that employees can close 
the job gap.
    I would like to know; do you have people who work for you 
in your companies for whom English is not the first language? 
And do you offer services such as this?
    Mr. JOHNSON. Thank you for the question.
    Specifically, within the organization, what I would better 
refer that to is the people that are on the boards that we work 
with. So, the first thing that we must do is to be sure that we 
have a strong industry partnership along with education to 
identify what are the critical crafts for the area. If we have 
done that, we have half of the battle. But a part of that, and 
what is missing in most of those boards, is connecting with the 
neighborhood centers around the area that have the direct 
connection to people that are underrepresented and to people 
that are in impoverished areas that need these additional 
services. Including those organizations onto the board allows 
us to find out what are these additional barriers that we need 
to address within the education portion because just enticing 
them to come to this path is not the end of the equation. The 
other part of that is the quality part of it, and what are the 
skills that they need? And if there are some underlying 
foundational skills that are necessary like what you are 
talking about, it helps us to know in advance what those are, 
to put into the curriculum.
    Ms. CHU. So, Mr. Johnson, I am talking about the English 
language skills. So, are those being addressed?
    Mr. JOHNSON. Yes. If that is identified as a critical 
skill, as a skill that is absent in the community that we are 
trying to employ people, then it is put into the curriculum as 
well.
    Ms. CHU. Ms. Pilarski.
    Ms. PILARSKI. In southeastern Michigan, we also struggle 
with a population of folks that have non-English speaking 
skills. And one of the ways that we address it is through our 
partnership with United Way of Southeastern Michigan. So, we 
have been together partnering with United Way for 65 years. We 
have a very longstanding relationship. And they have some 
unique and specific programs where they focus on folks who have 
trouble with English. Our employees this year contributed over 
$5 million to support programs like these with United Way of 
Southeastern Michigan.
    So, I can certainly relate to the challenges that you have. 
We find it ourselves in our region, and we think the right 
approach is to partner with professionals like United Way to 
help us move through that issue because those folks, you are 
exactly right, would be very good folks for us to consider for 
positions in our plants.
    Ms. CHU. I applaud you for that partnership. It certainly 
can make sure that we utilize these people to the greatest 
degree possible by addressing their English language skills and 
certainly can provide a more robust workforce. Thank you.
    Chairman SMITH. Thank you. Next up, we have Mr. Bishop who 
is recognized for 5 minutes.
    Mr. BISHOP. Thank you, Mr. Chair.
    Thank you to all the panelists for being here today. Thank 
you for taking the time out of your busy days to participate in 
this and helping to craft public policy and really lead 
discussion on this issue that is so vitally important to the 
future of this country.
    Each and every one of us has constituents that we 
represent. Personally, I have been all over my district talking 
to companies big and small about issues that are of concern to 
them.
    This is the primary issue that I hear from every single 
business, and so we really have got to get creative about this, 
and we really have got to work together to figure out how to 
change the direction of what we are doing now and really, 
reinventing the wheel.
    In Michigan, as Ms. Pilarski knows, we are the motor city, 
and we had some problems about 10 years ago. We had a really, 
really bad recession. Manufacturing jobs left our State, and 
they did in great numbers. We are just now rebuilding. Ten 
years later, I think you can say that, as many people do, that 
Michigan is the comeback State and Detroit is a comeback city. 
One of our biggest problems, and some people say it is probably 
a good problem to have, is our economy is doing so well that we 
need workers, and we have to find a way to fill them.
    So, Ms. Pilarski, I know that Fiat Chrysler has done such a 
great job in bringing this intuitive new process, it is brand-
new on how you look for employees and fill spots. You are the 
H.R. director of a rather large--if anybody has an issue or is 
struggling right now or has challenges, it has got to be 
someone like you who sees it from every angle.
    There are so many things to talk about, but can you tell me 
a little bit about the United Way? I know you just started a 
discussion with Ms. Chu, but I would like to hear more.
    Ms. PILARSKI. Yes. We actually feel like part of the 
resolution to this problem is partnering with community 
organizations like the United Way. As I said, we have been 
together with them for 65 years, and we understand very well 
the programs that they have, what they have done, where they 
have been successful. And so, for example, they have a program 
they call College and Career Pathways. And what they do, these 
are for high school students, and they prepare kids for life 
after high school whether it is a two or four year degree or it 
is something else.
    So, for us, that is very natural for us to connect to a 
program like that because we have the jobs for those folks, 
those high schoolers who aren't going to go right and start 
their four year college degree. So, for us, understanding their 
programs and then being able to figure out where we connect is 
really, really important.
    The other thing, one of the things in our plants that can 
be a problem for us is absenteeism. And if you really drill 
down on that issue, you find that our employees struggle with 
some things like transportation, reliable transportation, 
childcare, other things, and United Way has wraparound services 
to help employees do that.
    I said that we have been partnering with United Way for 65 
years. For 64 years it was a one-way thing where we were 
raising money and providing it to United Way, and this is the 
first year in 65 years that we are asking for support back 
because of the situation that we are dealing with regarding the 
jobs gap.
    Mr. BISHOP. It is admirable. On behalf of my constituent 
base in southeast Michigan and the State of Michigan, I am so 
grateful to Fiat Chrysler for your leadership in this area.
    You also mentioned in your testimony, and also, I indicated 
in the introduction, that you are thinking about taking away 
the requirement for college education for your supervisors. We 
have many students in this country, many young people who have 
significant debt in that 18- to 24-year-old gap that are most 
likely not to have a job, and so we are facing a fundamental 
crisis here.
    Tell us a little bit about your decision to take away that 
degree requirement for supervisors.
    Ms. PILARSKI. Yes, and we are talking specifically about 
production supervisors, so these are folks in our plants that 
generally have responsibility for a team of about 40 people 
that would lead maybe five or six different work activities. In 
the past, we have required a four year degree for those folks, 
and we have too many positions that are open.
    What we are finding is that when we bring a new hire on to 
the assembly line who doesn't need a college degree, we bring 
them in as a team member, and for those who have the interest, 
they can aspire to be team leaders which they are then managing 
about six folks. We are finding that these folks are a really 
good pipeline into these production supervisor positions, but 
they don't have the college degree. So, we just connected the 
dots on that and said, we need to rethink what our minimum 
requirements are because we really have the capability in these 
employees, and we need to leverage that and that is what really 
drove the decision.
    Mr. BISHOP. Thank you very much. I yield back.
    Chairman SMITH. In the interest of time, we want to move 
things along given the vote schedule.
    Next, I will recognize Ms. Sewell for 5 minutes.
    Ms. SEWELL. Thank you, Chairman Smith and Ranking Member 
Davis. I want to thank our witnesses for being here today. My 
constituents in Alabama know that my top legislative priority 
is jobs and workforce development. Every year, during the 
August district work period, I host a job fair, an annual job 
fair, that moves around between my urban parts and my rural 
parts of my district given the fact that there are different 
needs in different parts of the district. But there are very 
real barriers that obstruct individuals from entering or 
staying in the workforce.
    After every job fair, I hear from my employers that there 
are many enthusiastic applicants but that the job openings go 
unfilled because many of the candidates don't have the proper 
skills or training to qualify to fill those jobs.
    That is why I think it is really important that the work 
that you all are doing in terms of workforce development and 
apprenticeship programs and internship programs are critically 
important to our ability to make sure that we not only close 
the jobs gap but the opportunity gap that exists in this 
country.
    Policymakers, Republicans and Democrats, support 
apprenticeship programs and internships because employers can 
fill labor gaps, and workers can earn while they learn. But 
apprenticeships are scarce in today's economy. Last year, fewer 
than 50,000 Americans graduated from a registered 
apprenticeship program. Moreover, I have learned that often 
they don't reach women, minorities, and rural youth as 
effectively as they do other kinds of applicants.
    After speaking to my constituents and employers, I found 
that there are two reasons for this. First, low-income families 
need stability to be effective participants in workforce 
development programs. If a family can't afford childcare or 
they don't have access to transportation, housing, or 
healthcare, it becomes almost impossible for an individual to 
focus on succeeding in a workforce development program.
    In my district, where the average median household income 
for a family of four is less than $35,000, working families 
don't earn enough to make ends meet without assistance. So, if 
Congress and this Administration is serious about addressing 
the skills gap, we must strengthen funding for wraparound 
services so that those who have fallen on hard times have the 
ability and the opportunity to pull themselves out of poverty.
    Secondly, I believe the reason why we see fewer youth--
rural youth, minorities, and women in some of these programs is 
because workforce development programs do not serve some of our 
most disparate populations programs like I think programs like 
TANF, the Temporary Assistance for Needy Families, is not 
properly designed to provide workforce training and education 
to its recipients. Since its inception, TANF has been sold as a 
program that helps transition impoverished Americans, but, 
unfortunately, very few TANF dollars go to education and 
training, making it very difficult for TANF recipients to find 
good, long-term employment.
    This Committee must focus on making sure that workforce 
development becomes the central part of TANF's mission. And 
that is what we are doing here today is learning more about 
what works as far as workforce development programs and what we 
can learn from them.
    So, I guess my question: I will start with you, Ms. 
Pilarski, I in Alabama, we consider ourselves the Detroit of 
the South because we have a lot of automobile manufacturers in 
our district. Likewise, in my district, I have Mercedes-Benz 
and Hyundai, so I am quite interested in the program that you 
have outlined.
    Can you talk to us about best practices and what workforce 
development and apprenticeship best practices that you have 
learned that we can maybe glean to government assistance 
programs like TANF?
    Ms. PILARSKI. You know, I will agree with you that these 
apprenticeship programs and co-ops and all that kind of stuff, 
these are very small numbers. They are very, very, very small 
numbers.
    Ms. SEWELL. And often they are more than--your training 
program is a 2-year program. TANF only is 12 months. We have to 
really start thinking about how we are designing these programs 
in order to make sure that we are addressing the real skills 
gap that exists.
    Ms. PILARSKI. Right. I agree. Like I mentioned before, I 
think when we talk about apprenticeship or development of folks 
coming into the organization, we really leverage these 
mentoring relationships. We really leverage these cohort groups 
of folks with similar experiences and similar skills coming in.
    Ms. SEWELL. They can learn from each other.
    Ms. PILARSKI. Yes. It is really important, and especially 
for young kids, coming from schools, they are used to those----
    Ms. SEWELL. I am running out of time. I wanted to ask Dr. 
Lustig, wraparound services like having access to childcare and 
access to transportation, how critical is that in these 
programs?
    Mr. LUSTIG. Those are the most significant barriers. One of 
the biggest barriers for women accessing treatment is the need 
for childcare. Most agencies and services won't allow a woman 
to become stabilized without childcare, and that is a 
tremendous barrier.
    So, one of the things we do at Haymarket Center is as mom 
is going through our job training program, we are offering an 
onsite daycare center.
    Chairman SMITH. I am sorry to interrupt, but we are kind of 
pressed for time.
    Next recognized for 5 minutes is Mr. Reichert.
    Mr. REICHERT. Ms. Shapiro, how long have you been working 
in this field in your community?
    Ms. SHAPIRO. Twenty years.
    Mr. REICHERT. Twenty years. Dr. Lustig, how long have you 
been doing your outreach work?
    Mr. LUSTIG. Twenty-five years.
    Mr. REICHERT. So, in your 45 years of experience, what has 
changed since you started your work and we find ourselves in 
the situation that we find ourselves in today?
    Ms. Shapiro, first.
    Ms. SHAPIRO. Broad question. I think, in some ways, the 
work has gotten harder. In New York City, even just 7 or 8 
years ago, the number of out-of-school and out-of-work adults 
was about 187,000. That is just in New York City.
    Mr. REICHERT. What was it 20 years ago, do you remember? 
Roughly.
    Ms. SHAPIRO. Maybe a little bit less than that but still 
high. And so----
    Mr. REICHERT. So, no progress.
    Ms. SHAPIRO. Not a lot. And now it actually has dropped a 
bit. So now it is down to 136,000. It is still a huge number, 
but it has dropped a bit. But the young people who are sort of 
left behind, who are sort of left disconnected are the ones who 
need the most support. And so young people who are aging out of 
foster care, young people who have involved with the justice 
system, young people who are struggling with mental illness, 
those are a lot of the barriers that we are trying to address 
now.
    Mr. REICHERT. I get that. Doctor, what do you see, after 
your 25 years of hard work?
    Mr. LUSTIG. We don't see a lot that has changed. But what 
we have seen is that the programs that the Federal Government 
has put out, we have learned a lot, and we have found that some 
of these work development programs, these job training 
programs, really do work, but they are never brought to scale.
    Mr. REICHERT. One of the comments you made was this is 
generational. That is what I am trying to get at. I know--I 
agree: the programs, the treatment, the medical, the 
psychological, the physical medical treatments, and help that 
we can give people, job training, soft skills. I have got a 
question mark around that, learning disabilities. I am 
dyslexic. I barely graduated from high school. I have 2 years 
of college and look where I ended up: God has punished me. No. 
I am proud to serve.
    But the point is that what is happening--for me, it is what 
is happening in the family. I was a cop for 33 years. I ran 
away from home when I was a senior in high school. I lived in 
an old car. I went to school every day. I am trying to figure 
out why. I think it was football and girls was the reason I was 
there.
    We used to have home economics class, wood shop, metal 
shop, and machine shop, and we don't have those in our schools 
today. We need to go back to the basics, I think, and what can 
we do, especially in the foster care world too. I was a foster 
grandparent and an adoptive grandparent, et cetera. There are 
so many things that are happening within the family that create 
or not happening within the family that create the situation 
that we are in now that is happening in the school or not 
happening in our schools that are creating the sadness that we 
see that you have seen for 45 years total.
    What can we do to prevent? Because I am about prevention. 
Instead of--we are playing catchup. And your numbers are 
essentially the same. What can we do for prevention?
    Mr. LUSTIG. First and foremost, when you look at your 
prevention programs, most prevention programs in many States 
have either been cut or eliminated. So that is the first piece 
to understand.
    Mr. REICHERT. At the local, city, county, State level?
    Mr. LUSTIG. Yes. But what is the key with prevention is 
that we have to get far enough upstream to really have 
prevention work. That is what we are not seeing today. So, when 
you take a look at, take addiction that is impacting so many 
families as it relates to jobs----
    Mr. REICHERT. I have seen that.
    Mr. LUSTIG. There are so many key pieces to this. The key 
piece to understanding addiction is, even though we have dumped 
billions of dollars into the opioid epidemic, the issue as it 
relates to stigma of people seeking treatment is still alive 
and well today. So, you have to get your prevention programs.
    Mr. REICHERT. What about the soft skills though? That is 
stuff that my parents taught me at home, the teachers taught me 
at home: to show up for work or to show up on time, 8 hours 
work for 8 hours pay.
    Ms. Shapiro, real quick.
    Ms. SHAPIRO. I think the focus really has to be, and for 
us, it is sort of on positive youth development, and that is 
prevention for us. It is getting to young people early, 
providing them opportunities, connecting them to positive 
relationships with caring adults, providing that wraparound 
support, believing in them, and helping them chart a course for 
their future, which as we have talked about in this hearing may 
or may not involve college but can certainly involve positive 
paths either through education or through careers.
    Mr. REICHERT. Thank you.
    I yield back.
    Chairman SMITH. Next is Mr. LaHood for 5 minutes or less.
    Mr. LAHOOD. Thank you, Mr. Chairman.
    I appreciate your doing this series before our Subcommittee 
on the jobs gap and employers' need for qualified workers. It 
is so important to our economy and where we are at today.
    I want to thank all the witnesses for being here today for 
spending some time with us and sharing your perspective.
    Mr. Johnson, I had a couple of questions for you.
    In your testimony, you talk about a strategy for workforce 
development and collaborative synergy. I have heard mixed 
reviews about the workforce system and one-stop centers. In my 
State, they call them Illinois Worknet Centers. Given that you 
operate facilities I believe in 29 States, what has your 
experience been in working with the workforce system? That is 
number one.
    Secondly, my understanding is that the workforce system, or 
WIOA, is supposed to be oriented toward connecting people with 
in-demand jobs and working with employers in some of the same 
ways we have heard in your testimony.
    Is that currently happening?
    Mr. JOHNSON. Yes, that is currently happening. But the key, 
I believe, is to connect those workforce centers with the 
workforce boards that industries are leading together as a 
group. Getting us all together to this workforce development 
equation that I mentioned is the only way for everyone to 
understand it, to be able to follow it. For example, let's say 
that one of my BASF sites or the site leader says that they 
decide they need three electrical technicians over the next 5 
and 10 years. Well, to get three, we have to credential three. 
But to credential three, you have to enroll six, because not 
everyone makes it through the program. To enroll six, we have 
to talk to 25 because we don't convince everyone to take the 
path.
    That system is what is happening today with individuals 
worried about that end-part of the pipeline.
    If we do that, the problem is we are never going to supply 
what we are trying to get because a lot of those people who are 
graduating with those credentials may get hired by someone 
else.
    The better bet is for us to work with our regional 
partners, our industry partners in the area, and decide how 
many electrical technicians do we need as a group for this 
region so we know how many to enroll, so we know how many to 
speak to. If we get that math correct, we create a pipeline 
that fulfills us all instead of us only worrying about our 
individual needs.
    Mr. LAHOOD. When you describe that deficiency, is there a 
public policy answer to that? Is there something government 
should or shouldn't be doing? Or is that something that is 
solved in the private sector?
    Mr. JOHNSON. Well, it is a bigger answer than I have time 
for today, but the answer is absolutely yes.
    One of the primary things that I believe that public policy 
can address is educational funding messaging. I talk about the 
message a lot during my testimony, parents, teachers, everyone, 
but that would include our policy does not communicate to kids, 
what jobs are available. If I as a young student go to apply 
and get a Pell grant, whenever I get that Pell grant, it 
doesn't tell me that I can use it for just these particular 
jobs, but that is what it should do. Right now, if you get 
qualified for a Pell grant, you can use it for a master's 
degree in basket weaving if you want to. But you are probably 
not going to get a job in that.
    If we change policy to where educational funding is based 
upon job availability projections, we are sending a message 
each time to each student whenever they fill out their federal 
application for student financial aid, that, yes, I received 
this money, but I might not want to go in this particular 
direction because they don't say there is going to be any jobs 
available.
    Mr. LAHOOD. Lastly, as the world's largest chemical 
producer in the world, can you talk a little about BASF, how 
you balance the need for labor when unemployment is so low with 
safety concerns in your facilities?
    Mr. JOHNSON. I would hate to say the word ``balance against 
safety'' at any time. Safety is number one at all times. But we 
do address the need for labor by the urgency at which we take 
action and join with our industry partners.
    The urgency of what is happening now and what we project to 
see happening because 11,000 baby boomers turn 70 every single 
24 hours beginning last year is something that we have to take 
action on now and, again, as I mentioned earlier, not put the 
snooze button on this jobs gap issue. So, we are taking the 
urgency extremely seriously at this moment to prepare for 
something we don't think is quite affecting us yet. We believe 
that a lot of baby boomers have decided to stay in the 
workforce for a number of years longer than they would have 
because of the last 5 to 10 years of market downturns when they 
thought they were going to retire, didn't because their 401(k)s 
just weren't where they thought it would be. By the time it 
came back, they realized: I don't have to retire. But we are 
learning that, by the time they turn 70, they are rethinking 
that decision.
    Mr. LAHOOD. Thank you.
    Chairman SMITH. Thank you.
    Mr. Schweikert.
    Mr. SCHWEIKERT. Thank you, Mr. Chairman.
    This is an area I have a huge fascination so forgive me if 
we bounce all over the place data-wise. I actually have the CBO 
report in front of me that is talking about our economic growth 
and those things. It turns out they consider the single biggest 
barrier, the capping that we are--the ceiling we are hitting up 
against is our labor force participation numbers. And within 
that, it was shocking. You just talked about seniors. When you 
actually look at some of the labor force participation numbers, 
how many of our younger people aren't actually entering the 
labor force.
    I struggle with some of this because just what I think 10 
days ago sitting right where you are sitting, I had a gentleman 
from Arizona, a three-time convicted felon, took on some 
electrical training classes from an electrical contractor in 
prison, solely nongovernment, because they were so desperate 
for workers, and they are having this amazing retention rate.
    Remember this is a young man who was an addict. But bless 
him. As he said, one of the quotes, and it is burned in my 
head, is: I am working so many hours and I am so busy, I 
haven't had a chance to relapse.
    In several months he is up to $22 an hour.
    And having a mother who was a substance abuse counselor 
where we never knew who was coming to Thanksgiving dinner, it 
turns out being busy sometimes is an amazing antidote to that 
and showing up at your meetings.
    If I came to you right now and said: This is the 
opportunity we were dreaming of a few years ago, there are 
jobs. A few years ago, our complaint was there weren't jobs. 
People are moving to very bad behavior because they have no 
place to go. We can't use that excuse today. We have lots of 
places for them to go.
    What are we working? Is it Ms. Shapiro? Did you say you 
were seeing actually in some of your population that you are 
down to what, 130,000?
    Ms. SHAPIRO. In New York City.
    Mr. SCHWEIKERT. My curiosity is it was a measurable number.
    Ms. SHAPIRO. In New York City, there are 136,000 out-of-
school out-of-work young people.
    Mr. SCHWEIKERT. What was it at its peak a few years ago?
    Ms. SHAPIRO. It was 187,000.
    Mr. SCHWEIKERT. So what positive happened in that 
population? How do we keep doing more of that?
    Ms. SHAPIRO. I think there has been progress with both 
additional public resources. And in New York City, there are 
also a lot of private resources that are dedicated to workforce 
development. So, the programs that have been set up, and there 
is a good infrastructure of job training programs in the city 
have worked----
    Mr. SCHWEIKERT. Could you share with me--I am sorry; I know 
I am interrupting it is but it is the life of living on a 
clock--are you seeing the number of businesses just like our 
example last week with the young man who is changing his life 
around, it was a business that needed a certain electrical 
talent. They trained him to that talent and guaranteed him a 
job upon his release date whereas--and I would like to actually 
submit it to the record. I have the Labor Department inspector 
general's report on the Job Corps, and it is heartbreaking how 
badly the auditor general said it is failing the very 
populations it is supposed to be serving.
    Chairman SMITH. Without objection.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    

                                 <F-dash>


    Mr. SCHWEIKERT. I think it is important to see that. Both 
right and left want solutions to this. Sometimes we may come at 
it from different directions.
    What do you see working most effectively right now?
    Ms. SHAPIRO. Our partnership with Gap is a great example, 
but we have a lot of other industry partnerships as well. So, 
we have a culinary industry partnership, an IT industry 
partnership. We are training young people for EMT jobs. We are 
working with the masonry and historical preservation industry. 
And so, these industry partnerships and employer partnerships 
are working. It is just there are a lot of young people who are 
left behind who need more support and more prep----
    Mr. SCHWEIKERT [continuing]. Are you sometimes taking 
someone who may have a bit of a dodgy past, and are you 
accepting them, training them, hoping they are showing up at 
their meetings? What are you doing?
    Mr. STAUB. Yes. We have hired some folks who have had a not 
so great past and entering them in to our finishing department 
where we train them and see how they do there, and we can give 
them the skills to move forward and do computer operating 
machinery or other skills, welder, or whatever is needed and 
what path they are interested in.
    Mr. SCHWEIKERT. Mr. Johnson.
    Mr. JOHNSON. I just have a comment. The bottom line comes 
down to this, either we have truly a second chance society or 
we don't. And part of the barrier for people with need for a 
second chance has to do with how we ask them if they are 
available or if they are okay to work. We ask them questions 
like, ``have you ever,'' instead of, ``have you in the last 7 
years.''
    Mr. SCHWEIKERT. Mr. Chairman, I know I am way over time, 
but you are actually seeing some really interesting stuff in 
the data. Felons, people with some really difficult pasts are 
getting jobs.
    How do we, as policymakers, make it so if someone needs to 
go to their 12-step meeting over lunch, that that is embraced? 
It is almost a rethinking, and I am hoping this labor force 
shortage is making a difference in our society.
    Chairman SMITH. There is considerable interest in these 
win-win scenarios of bringing folks off the sidelines and 
focusing on the future.
    Next up is Mr. Curbelo for 5 minutes.
    Mr. CURBELO. Thank you very much, Mr. Chairman.
    I am grateful to you and to the Ranking Member and to 
really the entire Committee for dedicating so much time to this 
issue, to figuring out how we can work together as an 
institution with the private sector, with local and State 
partners, to improve the lives of disconnected youth, a lot of 
these young people who want to make their contribution to the 
world, to their communities, but just can't figure out how. And 
all of you who are here today in some way are dedicating a lot 
of your own personal time to figuring out a way forward for 
these young people so they can integrate into our society and 
be productive. I think you should all be commended for it.
    I am especially grateful because, in south Florida, we have 
a wonderful organization called Youth Co-Op that partners with 
Gap's This Way Ahead program to promote the well-being of at-
risk youth in the community through education, employment, and 
empowerment.
    But a question I have for Mr. Ard, for Mr. Staub, and for 
anyone else who wants to answer it, and I think it was touched 
upon earlier, but we should explore it more deeply.
    The Federal Government, does it have a visible role? Is it 
a reliable partner?
    You work on this every day.
    What difference is the Federal Government making in terms 
of helping these young people find their pathway to success?
    Mr. Ard, if you want to take it first, please.
    Mr. ARD. It is definitely a big question and one that I 
think we are grappling with on a pretty regular basis in my 
company. I think there is opportunity for all of us to do more. 
What we are doing currently is certainly on a more localized 
level with organizations for example with Youth Co-ops and 
things, something along those lines, The Door, our Boys and 
Girls Club. So, this is certainly an opportunity for the 
Federal Government to do more. Otherwise, it is a patchwork of 
experiences that you are being strung together and look 
different State-by-State.
    Mr. CURBELO. Mr. Staub.
    Mr. STAUB. There certainly is, like the Perkins bill that 
is currently in front of the Senate, things like that, to help 
the community and technical colleges get the funding and 
resources they need to have the equipment that they can train 
their students on. And there is opportunity too for the Federal 
Government to reach out to the education system to let them 
help spread the message that you don't have to get a 4-year 
degree.
    Today, the average attorney makes about the same as the 
average machinist when you figure out the college debt and the 
timeframe when they can earn their highest wages.
    It is very surprising that most people don't understand 
that, and we have an opportunity to share that message that 
many educators don't know, and we can help educate them too.
    Mr. CURBELO. Mr. Chairman, I think this is an interesting 
point because American taxpayers contribute billions of dollars 
every year to support those who are in need. And I think most 
Americans really do it proudly because we all want to help 
people who are struggling who need a hand up. But I think it is 
pretty clear from the testimony today and from all the 
different questions and answers that we have heard, that we can 
do a lot better as a Federal Government.
    Obviously, a great emphasis on education. I fully agree. I 
think we need to stop lying to young people by telling them 
there that there is only one pathway to success, which is a 
traditional 4-year degree. It works for a lot of people. It 
worked for me, but it does not work for everyone. We have 
created a stigma that is very dangerous.
    I hope from this Committee we can continue supporting those 
efforts to present the full menu of education options and 
pathways to success.
    And then I also think, in a lot of our social welfare 
programs, we need to do better and target them and make sure we 
are partnering with organizations and initiatives like the ones 
represented here today so that we can actually help empower 
people so they can grow independent of the government and kind 
of blaze their own pathway and find their role in the world.
    So, Mr. Chairman, I am going to be generous and efficient 
here the way I expect our federal programs will be some day and 
give you back about 45 seconds.
    Thank you. I yield back.
    Chairman SMITH. Thank you, Mr. Curbelo.
    Thank you to everyone for participating and, to our panel, 
for sharing your insights and your expertise. It is vital that 
we have these conversations. I think it is just a great 
reminder of what is at stake and how we want to focus on 
opportunity for the future, and like I said earlier, it is 
helping folks leave the sidelines and get in the action, 
because I think that it is just a win-win down the line 
positive scenario when we can help folks connect with 
opportunity for themselves personally, for their communities, 
for their families, you name it.
    So, thank you again.
    I will say that all Members will have 2 weeks to submit 
written questions to be answered later in writing. Those 
questions and your answers will be made part of the formal 
hearing record.
    With that, the Subcommittee stands adjourned.
    [Whereupon, at 1:23 p.m., the Subcommittee was adjourned.]

                                 [all]
                                 
                                 
                                 
</pre></body></html>
